No.

IN THE
SUPREME COURT OF THE UNITED STATES
HEYANGJING SHI ET.AL.
-PETITIONER(S)
vs.
JIM J MASH
-RESPONDENT
PROOF OF SERVICE

I.

XUEJIE HE
___________ , do swear or declare that on this date,
November 30
20 20 .as required by Supreme Court Rule 291 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with / first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses ;of those served are as follows:
United States.
Room 5614. Department Justice. Pennsylvania Ave..
N.W.. Washington. D. C. 20530-0001
JIM J MASH
126 Scribner Avenue. 1st Floor. Staten Island. NY 10301
I declare under penalty of perjury that the foregoing is true and correct.
.
.20 20
Executed on November 30

(Signature)
Xueiie He. Pro Se
Petitioners

